  Report No. D-2009-049            February 9, 2009




Internal Controls Over the United States Marine Corps
     Military Equipment Baseline Valuation Effort
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense Inspector
General at http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can also
be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

MARCORSYSCOM                  Marine Corps Systems Command
P&EPO                         Property and Equipment Policy Office
PMO                           Program Management Office
PPS                           Proportional to Size
SFFAS                         Statement of Federal Financial Accounting Standards
USMC                          United States Marine Corps
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704

                                                                          February 9, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)IDOD CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NA VAL INSPECTOR GENERAL


SUBJECT: Intemal Controls Over the United States Marine Corps Military Equipment
         Baseline Valuation Effort (Report No. D-2009-049)

We m'e providing this report for review and comment. We considered comments from
the United States Marine Corps on a draft when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
United States Mm'ine Corps comments were nonresponsive to Recommendations I and 2,
but partially responsive to Recommendation 3. We request additional comments on
Recommendations 1,2, and 3. Therefore, we request that the Commandant, United
States Mm'ine Corps provide comments by March 9, 2009. See the recommendations
table on page ii.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send client comments in electronic fOimat (Adobe Acrobat file only) to
AudDBO@dodig.mil. Copies ofthe client comments must have the actual signature of
the authorizing official for your organization. We cannot accept the / Signed / symbol in
place of the actual signature. If you arrange to send classified comments electronically,
you must send them over the SECRET Intemet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                             f~Q·m~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
                    Report No. D-2009-049 (Project No. D2007-D000FN-0216.000)
                                         February 9, 2009


               Results in Brief: Internal Controls Over the
               United States Marine Corps Military
               Equipment Baseline Valuation Effort
                                                           •   military equipment valuation had
What We Did                                                    $2.1 billion, of $5.9 billion, in
The Property and Equipment Policy Office                       unsupported acquisition costs and a
(P&EPO) in the Office of the Under Secretary                   potential $12 million understatement in
of Defense for Acquisition, Technology, and                    the valuation as of September 30, 2006;
Logistics requested that the DoD Office of                     and
Inspector General perform procedures to review             •   military equipment programs had 116
the military equipment baseline valuation as of                unsupported waivers of 148
September 30, 2006. Officials from both offices                judgmentally selected waivers.
discussed and agreed upon objectives for the
audit, which included evaluating the reliability        What We Recommend
of the internal controls over three of the              We recommend that the Commander of the
financial statement assertions: valuation, rights       Marine Corps Systems Command and Program
and obligations, and completeness. We assessed          Executive Officer for Land Systems ensure that:
the effectiveness of the P&EPO and United                  • program managers maintain supporting
States Marine Corps (USMC) internal controls                   documentation for valuations, waivers,
over the valuation, rights and obligations, and                useful lives, and program completeness
completeness of military equipment programs.                   and
We reviewed the P&EPO packages and                         • all waivers meet the definition of
supporting documentation. We compared a                        military equipment waivers and are
Capital Asset Management System-Military                       monitored for changes in waiver status.
Equipment list to budget and accounting system
reports provided as support. We judgmentally            Client Comments and Our
selected programs that had received waivers
issued by the Property and Equipment Policy             Response
Office to determine whether the waivers were            The Commandant of the United States Marine
adequately supported. This report is one in a           Corps disagreed with two recommendations, but
series. The final report will summarize all             agreed with one recommendation. His
findings for the series and recommend                   comments were not fully responsive and we
corrective actions, as appropriate.                     request that the Commandant, United States
                                                        Marine Corps provide additional comments by
What We Found                                           March 9, 2009. Please see the ecommendations
P&EPO and USMC did not have adequate                    table on the back of this page. Please see the
controls in place over the USMC military                finding section of the report for a detailed
equipment baseline. As a result, USMC:                  discussion of the agency comments and our
                                                        response.
   • valuation, rights and obligations, and
       completeness assertions were
       unsupported;


                                                    i
              Report No. D-2009-049 (Project No. D2007-D000FN-0216.000)
                                   February 9, 2009

Recommendations Table
Client                          Recommendations            No Additional Comments
                                Requiring Comment          Required
Commandant, United States
Marine Corps                    1, 2, and 3

Please provide comments by March 9, 2009.




                                              ii
Table of Contents

Results in Brief                                                   i

Introduction

       Objectives                                                  1
       Background                                                  1
       Review of Internal Controls                                 3
       Management Assertions                                       3

Finding. United States Marine Corps Military Equipment Baseline    5

       Client Comments on the Finding and Our Response            8
       Recommendations, Client Comments, and Our Response         9

Appendices

       A. Scope and Methodology                                   13
              Prior Coverage                                      14
       B. Statistical Sampling Methodology                        15

Client Comments

       United States Marine Corps                                 17
Introduction
Objectives
Our objective was to determine whether internal controls over the valuation of the United
States Marine Corps (USMC) military equipment baseline were adequate. Specifically,
we assessed the effectiveness of the Property and Equipment Policy Office (P&EPO) and
USMC internal controls over the valuation, rights and obligations, and completeness of
military equipment programs. See Appendix A for a discussion of the scope and
methodology and for prior coverage related to the objectives.


Background
The P&EPO in the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics requested that the DoD Office of Inspector General perform
procedures to review the military equipment baseline as of September 30, 2006. Officials
in the P&EPO and the Office of Inspector General discussed and agreed upon objectives
for this audit. The agreed-upon objectives included evaluating the reliability of the
internal controls over the financial statement assertions: valuation, rights and obligations,
and completeness of military equipment programs.

The Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer established the
P&EPO in December 2000 to ensure a consistent military equipment valuation
methodology. The P&EPO led the Department-wide effort to achieve compliance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating the
Category National Defense Property, Plant, and Equipment,” by developing the military
equipment program universe and performing the initial military equipment valuation.
The P&EPO developed the universe to identify all military equipment programs. The
P&EPO used budget reports and asset data obtained from DoD accountability and
logistics systems to develop the military equipment program universe. The initial
military equipment valuation developed a value for the military equipment programs for
inclusion in the DoD financial statements. The process was a manual effort that began in
FY 2002 and continued through FY 2006 with the implementation of Capital Asset
Management System-Military Equipment. The Capital Asset Management
System-Military Equipment captures asset status and expenditures. In addition, it values,
capitalizes, and depreciates delivered assets, and it reports financial and management
data.

Military equipment valuation is a DoD-wide effort to implement Federal accounting
standards requiring military equipment to be capitalized and recorded on the DoD
financial statements. Previously, DoD classified military equipment as National Defense
Property, Plant, and Equipment, which was expensed in the year it was acquired. In May
2003, the Federal Accounting Standards Advisory Board issued SFFAS No. 23, which
eliminated the category of National Defense Property, Plant, and Equipment and

                                            1
reclassified military equipment as General Property, Plant, and Equipment. SFFAS
No. 23 requires that the initial capitalization amount for assets previously considered
National Defense Property, Plant, and Equipment be based on historical cost in
accordance with the asset recognition provisions of SFFAS No. 6, “Accounting for
Property, Plant and Equipment,” as amended and should be the initial historical cost for
the items, including any major improvements or modifications.

SFFAS No. 6 defines Property, Plant, and Equipment as tangible assets that have an
estimated useful life of 2 or more years, are not intended for sale in the ordinary course of
business, and are intended to be used or available for use by the entity. SFFAS No. 6
states that depreciation expense is calculated through the systematic and rational
allocation of the cost of General Property, Plant, and Equipment, less its estimated
salvage or residual value, over the estimated useful life of the General Property, Plant,
and Equipment. The Standard requires costs that extend the useful life of existing
General Property, Plant, and Equipment or increase or improve its capacity to be
capitalized and depreciated and/or amortized over the remaining useful life of the
associated General Property, Plant, and Equipment.

DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,” volume 4,
chapter 6, “Property, Plant, and Equipment,” July 2006, defines General Property, Plant,
and Equipment as tangible assets that meet all of the following criteria:

   •   have an estimated useful life of 2 years or more;
   •   are not intended for sale in the ordinary course of operations;
   •   are acquired or constructed with the intention of being used or available for use by
       the entity; and
   •   have an initial acquisition cost, book value or, when applicable, an estimated fair
       market value that equals or exceeds the DoD capitalization threshold, which is
       $100,000.

This includes assets that had previously been classified as National Defense Property,
Plant, and Equipment; bulk purchases; and assets used in providing goods or services. It
also includes assets that support the mission of the entity. Additionally, the costs to
improve General Property, Plant, and Equipment should be capitalized when the
improvement increases the asset’s capability, size, efficiency, and useful life, or modifies
functionality and would not otherwise be considered maintenance or repairs.

All General Property, Plant, and Equipment assets acquired by DoD must be recognized
for accountability and financial reporting purposes. Recognition requires the proper
accounting treatment (expense or capitalization and depreciation or amortization) and the
reporting of capitalized amounts and accumulated depreciation or amortization on the
appropriate DoD Component’s financial statements. The DoD Component that procures
a General Property, Plant, and Equipment asset or the DoD Component in possession of a




                                            2
General Property, Plant, and Equipment asset will be the DoD Component that accounts
for and reports the asset. 1

Review of Internal Controls
We determined that material internal control weaknesses, as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006, existed in the military equipment valuation processes. DoD Instruction 5010.40
states that internal controls are the organization, policies, and procedures that help
program financial managers to achieve results and safeguard the integrity of their
programs. The P&EPO and USMC military equipment PMOs did not maintain adequate
controls to ensure that documents supporting valuations, rights and obligations, and
completeness of its military equipment programs were obtained, retained and available
for audit. Implementing the recommendations will improve the controls over the military
equipment valuation processes and support for the valuation, rights and obligation, and
completeness assertions for military equipment programs. Although we identified
material weaknesses in the P&EPO process for valuing military equipment, we are
making no recommendations to the P&EPO to correct them in this report. This report is
one in a series and the final report will summarize all findings in the series and
recommend corrective actions for the P&EPO internal control weaknesses. A copy of the
final report will be provided to the senior officials in charge of management controls.

Management Assertions
Management assertions are representations by management about information in the
financial statements. The primary management assertions for the Military Equipment
line item are listed in Table 1.

                                      Table 1. Management Assertions
             Assertion                                     Management Representation
Valuation or Allocation                 All military equipment is properly valued.

Rights and Obligations                   The USMC owns all military equipment reported in the financial
                                         statements.
Completeness                             All military equipment owned by the USMC is reported in the
                                         financial statements.
Existence or Occurrence                  All military equipment assets reported in the financial statements
                                         existed at the time.
Presentation and Disclosure              All military equipment assets are correctly reported in the financial
                                         statements.

Our audit focused on the assertions for valuation, rights and obligations, and
completeness of program universe applicable to the USMC military equipment baseline.




1
    The DoD Regulation 7000.14-R also refers to this principle as the preponderance of use.

                                                     3
4
Finding. United States Marine Corps Military
Equipment Baseline
The internal controls over the United States Marine Corps (USMC) military equipment
baseline were inadequate. Specifically, the USMC military equipment program
valuation, rights and obligations, and completeness of universe program assertions as of
September 30, 2006, were not sufficiently supported because the Property and Equipment
Policy Office (P&EPO) and USMC did not have adequate internal controls over the
processes for obtaining and maintaining supporting documentation. As a result, USMC
could not support $2.1 billion out of a sample of $5.9 billion in military equipment costs.
In addition, the USMC military equipment baseline could be misstated by an additional
$12 million that was not included in the baseline. Finally, military equipment programs
that were identified as waived programs were not adequately supported, and the USMC’s
rights and obligations pertaining to 14 military equipment programs could not be verified.
Without positive assurance regarding the valuation, rights and obligations, and
completeness of financial statement assertions, the potential for a material financial
statement misstatement exists.

Valuation Assertion
P&EPO and USMC internal controls did not ensure that valuations were based on
appropriate documentation and methodologies. Proper valuation, which includes
accumulated depreciation, must be supported by acquisition cost, the date of acquisition
or placed-in-service date, and useful lives of the assets. USMC could not support its
military equipment baseline valuation as of September 30, 2006. The P&EPO provided
valuation packages that were supposed to contain an executive summary, the valuation
model, completed questionnaires provided by program managers, and available
supporting documentation provided by the program managers. P&EPO personnel
provided training to USMC program managers on maintaining support for the historical
cost baseline packages for each program because auditors and others would be requesting
that information. However, USMC could not provide the required support for these
questionnaires and, ultimately, the baseline valuation.

Budget documents and other types of documentation are acceptable supporting
documentation for military equipment if obtaining initial historical cost is not practical.
The P&EPO and USMC provided accounting system reports and budget documents to
support reported acquisition costs for assets. The USMC military equipment programs
were valued at $7.3 billion as of September 30, 2006. We selected a sample of 14 2 of
64 military equipment programs for review. The programs represented $5.9 billion or


2
 For the 14 programs selected, we combined the original acquisition and its associated modifications into
one program resulting in 13 programs reviewed.


                                                   5
81 percent of the reported acquisition value. The P&EPO and USMC provided
insufficient supporting documentation for $2.1 billion of $5.9 billion of the programs
selected for review. The Material Handling Equipment program could be misstated by an
additional $12 million that was adequately supported but was not included in the
baseline. The remaining program valuation costs were adequately supported. Table 2
shows the reported military equipment values as of September 30, 2006, for the
individual programs in our sample and the respective acquisition costs that USMC was
not able to adequately support.

     Table 2. Reported Military Equipment Value at September 30, 2006, for Programs
                                       Reviewed 3
                                      (in millions)

                                                                           Unsupported
                                                            Acquisition    Acquisition
                                                               Cost           Cost
              Military Equipment Program                     Reviewed       Reviewed
    Advanced Amphibious Assault Vehicle- Product              $ 466.5             $ 8.5
    Improvement Plan
    AN TQP 36/46 Firefinder Radar                                39.0                 2.2
    Cougar, Mine Protected Armored Protection Patrol             78.4                54.6
    Vehicle
    High Mobility Multi-Purpose Wheeled Vehicle               1,310.5              497.6
    Javelin Command Launch Unit                                 334.1              215.9
    Joint Surveillance Target Attack Radar System                13.4                 4.7
    Light Armored Vehicle                                       776.1                20.3
    Lightweight 155mm Howitzer                                  195.0                58.0
    M1A1 Abrams Main Battle Tank                                801.8              801.8
    Marine Corps Air Ground Combat Center                        60.4                21.0
    Material Handling Equipment                                 293.2                70.3
    Medium Tactical Vehicle Replacement                       1,315.2              178.3
    Visual Information Systems                                  207.9              199.1
                                                    Total    $5,891.5           $2,132.3


For our sampled programs, we compared the Capital Asset Management System-Military
Equipment to completed questionnaires, budget reports, and accounting system reports.
USMC program management offices (PMOs) referred to only the P&EPO valuation
packages as supporting documentation. These valuation packages did not contain
supporting documentation to support acquisition date, date of receipt, or useful lives. The
insufficient support for useful lives was also identified in the P&EPO, Office of Under
Secretary of Defense for Acquisition, Technology, and Logistics, “Internal Validation
and Verification Project, Military Equipment Valuation,” report, June 13, 2006.


3
 Our review was performed at the program level and not at the end-item or unit level because the P&EPO
and USMC could not provide supporting documentation.

                                                    6
During our review of the 13 USMC military equipment programs, we identified different
baseline valuation support problems for each program. For example, for the Advanced
Amphibious Assault Vehicle-Product Improvement Plan and Lightweight 155mm
Howitzer military equipment programs, P&EPO and USMC personnel calculated the
program valuations using expected units purchased and expected expenditures instead of
current units purchased and current expenditures. For the Javelin Command Launch
Unit, the program included ordinance in the total program valuation, but USMC
personnel did not provide supporting documentation that confirmed how much of the
program was for ordinance. Finally, USMC personnel did not provide any supporting
documentation for the M1A1 Abrams Main Battle Tanks. USMC did not provide any
additional documentation to support the military equipment baseline valuation; therefore,
we cannot determine whether amounts reported for acquisition costs, depreciation,
accumulated depreciation, or the resulting net book value of military equipment were
supported.

Rights and Obligations Assertion
USMC could not provide supporting documentation that proved that USMC owned the
military equipment in its baseline as of September 30, 2006. DoD provides guidance for
verifying rights and obligations using:

   •   valid receipt and acceptance documentation, for example, DD250s;

   •   contract documents after fiscal year 2002 (which is mandated by SFFAS No. 23);
       and

   •   written directives detailing the preponderant use of assets.

USMC did not adequately support its rights and obligations. USMC provided
questionnaires, but they did not provide the documentation supporting questionnaire
responses. We requested the USMC PMOs provide:

   •   access to PMO personnel for the purposes of conducting interviews
       and obtaining supporting documentation and background information about
       where they keep supporting documentation,

   •   receiving documents, and

   •   engineering studies to support useful lives and depreciation calculations.

The USMC PMOs were unable to provide the requested documentation. Therefore, we
cannot determine whether the rights and obligations assertion for USMC military
equipment programs is accurate.




                                           7
Completeness Assertion
The military equipment valuation methodology allowed certain military programs to
receive waivers from valuation, which DoD granted. We reviewed the following types of
waivers.

   •   Temporary waivers issued for programs using research and development funding
       that did not require valuation at the time of assessment, but were expected to
       receive procurement funding in the future. They were to be reassessed annually.

   •   Software waivers issued for software integrated into weapons systems. The
       software was capitalized as part of the cost of the related military equipment
       program.

   •   Price waivers issued for assets that did not meet capitalization thresholds for
       military equipment.

USMC could not provide sufficient supporting documentation to allow an independent
assessment of 116 of the 148 sampled military equipment waivers. Without verifying the
validity of the waivers, P&EPO and USMC could not ensure that the military equipment
valuation baseline included all valid programs and excluded all allowable waived
programs. Further, depending on the validity of the waiver, the military equipment
valuation on the financial statements could be misstated.

We reviewed 23 temporary waivers, 20 software waivers, and 105 price waivers as of
September 30, 2006, to determine whether the waivers were adequately supported. For
the temporary waivers, USMC did not support that the equipment was still in research
and development. USMC did not adequately explain why it valued software operating
within military equipment separately as internal use software. This type of software
normally would be valued and reported as military equipment. For the price waivers,
USMC did not document that the cost of the items was less than $100,000. USMC did
not fully support waived USMC programs. Therefore, the completeness of USMC
military equipment programs may be inaccurate. These inaccuracies will also directly
impact program valuations.

Client Comments on the Finding and Our Response
The Commandant, United States Marine Corps comments on the finding did not
specifically address the finding. The comments provided were in relation to each of the
recommendations. Please see the following section for his comments and our response.




                                           8
Recommendations, Client Comments, and Our
Response
We recommend that the Commandant, United States Marine Corps ensure that
program managers:

   1. Maintain required documentation to support military equipment valuations,
acquisition and disposal dates, useful lives, waivers, and program completeness.

USMC Comments
The Commandant, United States Marine Corps disagreed. He stated that maintaining
supporting documentation was a P&EPO responsibility. The United States Marine Corps
followed the Office of the Secretary of Defense P&EPO guidance for establishing the
initial valuation of all known military equipment programs. Marine Corps Systems
Command (MARCORSYSCOM) program managers completed the questionnaires for
the programs identified by the P&EPO. The P&EPO-approved questionnaires should
serve as acceptable documentation for the inventory value as of September 30, 2006.
Since FY 2007, the United States Marine Corps records asset additions, disposals, and
transfers in Capital Asset Management System-Military Equipment; and
MARCORSYSCOM maintains supporting documentation for military equipment
valuation. MARCORSYSCOM can be accountable for the source documentation it
provided to populate Capital Asset Management System-Military Equipment, but it
cannot be accountable for the information produced after that point.


Our Response
The Commandant, United States Marine Corps comments were nonresponsive. The
P&EPO provided training to USMC Components logistics and acquisitions personnel on
the audit documentation requirements for the military equipment baseline. The P&EPO
is a support office established to help address military equipment valuation and
accountability issues from a DoD-wide perspective. The P&EPO training documentation
specifically stated what information would need to be maintained for audit purposes. For
example, the training documentation stated that the United States Marine Corps must
maintain original source documentation, such as contract records, delivery receipt
documentation, and payment records necessary to support the various valuation aspects
of military equipment. The guidance issued by the P&EPO never intended for the
questionnaires to serve as the sole support for military equipment valuation as of
September 30, 2006. Consequently, the P&EPO-approved questionnaires are not
considered adequate supporting documentation for the military equipment baseline. In
addition, it is the United States Marine Corps’ responsibility to support the amounts
stated on their financial statements regardless of the support provided by the P&EPO.

Although the United States Marine Corps began maintaining military equipment
supporting documentation in FY 2007, this does not apply to the supportability of the
military equipment baseline as of FY 2006. The stated objective of this audit was to

                                          9
assess the effectiveness of internal controls over the validation, rights and obligations,
and completeness of military equipment programs. The United States Marine Corps did
not demonstrate that adequate internal controls were in place over the United States
Marine Corps military equipment baseline valuation because it could not support these
valuations with appropriate source documentation as required by P&EPO guidance and
accounting standards.

We request that the Commandant, United States Marine Corps ensure that program
managers maintain required documentation to support military equipment valuations,
acquisitions and disposal dates, useful lives, waivers, and program completeness. We
also request that the Commandant, United States Marine Corps reconsider his position on
the recommendation and provide comments on the final report.

   2. Review waived programs as required and maintain documentation to
support the military equipment waiver status.


USMC Comments
The Commandant, United States Marine Corps disagreed with the recommendation. He
stated that this is a P&EPO responsibility.


Our Response
The Commandant, United States Marine Corps comments were nonresponsive. The
United States Marine Corps program managers are responsible for reviewing waived
programs and maintaining supporting documentation to support the waiver status. The
program managers, with assistance from the P&EPO valuation teams, determined if
military equipment programs should be waived. The P&EPO personnel discussed criteria
for waivers with program managers. The P&EPO Management Assertion Package, Tab 1
stated:

       (1) temporary waivers were to be reassessed annually by program managers; (2) software
       waivers were only to be issued for software integrated into weapons systems; and (3)
       price waivers were to be granted for assets that don't meet the capitalization threshold for
       military equipment.

The program managers did not submit supporting documentation for the signed waiver
letters. The program managers should have documentation to support why they signed
the waiver letters.

We request that the Commandant, United States Marine Corps ensure that program
managers review and maintain documentation to support the military equipment waiver
status. We also request that the Commandant, United States Marine Corps reconsider his
position on the recommendation and provide comments on the final report.




                                                  10
   3. Implement the management controls established by Property and Equipment
Policy Office, Acquisition, Technology, and Logistics and United States Marine
Corps Headquarters policy statements, directives, and regulations.


USMC Comments
The Commandant, United States Marine Corps agreed with this recommendation. The
Commander, Marine Corps Systems Command has implemented controls to support all
asset information provided to P&EPO.


Our Response
The Commandant, United States Marine Corps comments were partially responsive. The
Commandant, United States Marine Corps did not identify the implemented actions and
completion dates for the implemented controls to support all asset information provided
to P&EPO. We request that the Commandant, United States Marine Corps provide
comments in response to the final report that explain the management controls
implemented and provide the associated implementation dates.




                                         11
12
Appendix A. Scope and Methodology
We conducted this financial-related audit from July 2007 through March 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The objectives for this audit were to evaluate the reliability of the internal controls over
three of the financial statement assertions: valuation, rights and obligations, and
completeness of the military equipment program universe. We reviewed the
reasonableness and reliability of the estimated historical acquisition cost that USMC
developed using the documentation provided by the P&EPO from the valuation effort
conducted by KPMG. KPMG was contracted with to develop an auditable historic
baseline and related documentation packages that met all audit requirements. The
documents reviewed included budget documents and reports from the Standard
Accounting, Budgeting, and Reporting System financial reports. The PMOs that
responded to our requests stated they previously provided all support for the baseline
values to KPMG. The PMOs provided no additional support information.

We statistically selected and reviewed 14 of 64 military equipment acquisition and
modification programs. We combined one program and its associated modifications
under one program resulting in 13 programs reviewed. In addition, we judgmentally
selected 148 waived USMC military equipment programs. The review was not intended
to address the existence of the assets represented by reported program values.


Use of Computer-Processed Data
We relied on computer-processed data provided directly from P&EPO and its support
contractor. Specifically, we used the computer-processed data to review program
valuation calculations and examine supporting documentation adequacy. We did not
determine the reliability of computer-processed data. Not evaluating the controls did not
affect the results of the applications of the agreed-upon procedures.


Use of Technical Assistance
The DoD IG Quantitative Methods Directorate assisted with the audit. See Appendix B
for detailed information about the work performed by the Quantitative Methods
Directorate.



                                             13
Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued two reports related to military equipment. Unrestricted DoD IG reports are
available at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2005-112, “Report on Review of the Development of the DoD
Baseline for Military Equipment,” September 30, 2005

DoD IG Report No. D-2005-114, “Report on Review of the DoD Baseline for Military
Equipment,” September 30, 2005




                                         14
Appendix B. Statistical Sampling
Methodology
Quantitative Plan

Objective: To determine whether acquisition valuations were correct and if control
procedures were correctly followed.

Population: The population consisted of an Excel file containing 64 programs valued at
$7,296,753,356 and contained 20,032 end item transactions. The programs were
categorized by average cost and group composite method. There were 44 programs using
an average cost method that amounted to $3,422,707,271 that contain 19,912 end item
transactions. There were 20 programs using a group composite method that amounted to
$3,874,046,085 that contained 120 end items.

Measures: The variable measure was the dollar difference between the stated item value
and the audited value. The attribute measure of correct or incorrect was used to determine
if the item audited met the required conditions.

Parameters: We used a 90 percent confidence level for the statistical estimate.

Sample Plan
We used a two-stage sample design. Stage 1 was a probability proportional to size (pps)
design by acquisition value. Stage 2 was a simple random sample of program end items.
Programs were sampled separately based on the costing method, average cost, and group
composite.

Stage 1 average cost. We selected 15 programs using pps with replacement. We selected
nine unique programs.

Stage 1 group composite. We selected 15 programs using pps with replacement. We
selected 5 unique programs.

Stage 2 average cost. We randomly selected 10 end items from each of the 15 average
cost programs without replacement. Total sample size was 288.

Stage 2 group composite. We randomly selected 20 end items from each of the 15 group
composite programs without replacement. If there were fewer than 20 end items in a
program, we selected 100 percent of the items. Total sample size was 115. We used the
random number generator in SAS version 9.1 to select the random samples.




                                           15
Statistical Analysis and Interpretation

USMC did not provide sufficient supporting documentation for the valuation of the
programs selected for review. Therefore, Quantitative Methods Directorate did not make
any statistical projections.




                                         16
United States Marine Corps Comments




                  Click to add JPEG file




                                 17
Click to add JPEG file




               18
                           Final Report
                            Reference




Click to add JPEG file
                         Clarified Page 8-9




                         Clarified Page 9-10




               19
                           Final Report
                            Reference




                         Clarified Page 10




Click to add JPEG file




               20
